MEMORANDUM

TO:            M – Patrick Kennedy

FROM:          OIG – Harold W. Geisel, Deputy Inspector General

SUBJECT:       Memorandum Report - Oversight of Rest and Recuperation Travel
               Documentation and Certification, Report Number ISP-I-11-37

         During the inspections of Embassies Athens and Valletta, and Consulate General Hong
Kong, the Office of Inspector General (OIG) issued recommendations relating to rest and
recuperation (R&R) travel benefit eligibility and certification. Overseas missions approved for
R&R travel benefits are required to submit documentation biennially to their regional bureaus to
justify their continued eligibility (see 3 FAH-1 H-3721.4). OIG determined that Embassies
Athens and Valletta and Consulate General Hong Kong may not have submitted documentation
for recertification to their regional bureaus for a number of years. A review of available
documentation at each mission indicated that it has been approximately:

   •   Six years for Consulate General Hong Kong;
   •   Ten years for Embassy Athens; and,
   •   Twenty years for Embassy Valletta.

         During the inspection, OIG determined that the conditions for which Embassies Athens
and Valletta were approved for R&R benefits no longer exist and recommended that the Bureau
of European and Eurasian Affairs (EUR) discontinue R&R for both missions at an annual cost
savings of more than $180,000. In an informal response to the Athens report, EUR informed OIG
that it agrees with the recommendation and is in the process of informing Embassy Athens of its
decision to discontinue its benefits.

         The local conditions cited in Consulate General Hong Kong’s original justification may
have changed, and OIG recommended that Consulate General Hong Kong submit justification
for its continued eligibility for R&R to the Bureau of East Asian and Pacific Affairs (EAP).
Complicating matters is the fact that 3 FAH-1, Exhibit 3722(3) lists Hong Kong as the relief
destination for Consulate General Naha, Japan. In response to this review, EAP stated that it is in
the process of changing the relief destination for Consulate General Naha to Sydney, Australia.
Consulate General Naha’s R&R cost for FY 2010 was more than $14,000; a change in relief
destination to Sydney would result in a substantial increase in R&R travel costs. The local
conditions at Consulate General Naha may not warrant its continued eligibility for R&R. In
addition, Consulate General Hong Kong should be ineligible for R&R benefits if local conditions
are suitable for it to be designated as a relief destination. An annual savings of more than
$170,000 could be realized if R&R benefits were eliminated for both Consulates General Hong
Kong and Naha.

        The purpose of R&R is defined in 3 FAH-1 H-3721.2 as: “Conditions of life at the post
present distinct and significant difficulties of sufficient severity to justify temporary relief for an
employee and employee’s eligible family members during a period of assignment.” The
regulation identifies 11 factors that, at a minimum, are used to justify and approve a post’s
request for R&R designation. In designating a relief destination for R&R posts, the location must
have a climate, altitude, or environment sufficiently different from that of the R&R post. Another
important factor for determining a relief destination is the cost of travel to the nearest point that
provides the necessary change of conditions from post.

       There are approximately 146 overseas missions (at more than 190 locations) designated
for R&R in 3 FAH-1 H-3722. The six regional bureaus and nine functional bureaus spent more
than $30.8 million (approximately $26.3 and $4.5 million respectively) for R&R travel in FY
2010 (other agencies’ R&R costs are not included in this figure). It should be noted that R&R
expenses for Afghanistan and Iraq totaled over $11 million for FY 2010 (more than 35 percent of
the Department’s total 2010 R&R expenses).

        Though not paid in cash like other allowances, R&R is indeed an allowance and is used
to lure employees to bid on hardship posts. It is the only allowance that is approved by the
regional bureaus rather than the Office of Allowances in the Bureau of Administration
(A/OPR/ALS). Were the responsibility for R&R benefits transferred to the Office of Allowances,
it would allow for a more consistent treatment and assessment of R&R requests and improve the
timeliness of submissions of justification for continued eligibility. Finally, the transfer of the
approval and certification process would also allow for a more objective and systematic review
of all R&R posts that could lead to a reduction in the overall number of missions approved for
R&R at a substantial cost savings to the Department.

         In response to the draft report, A/OPR/ALS noted that while it does not currently
determine R&R travel eligibility for overseas posts, it “has the professional capability for this
work and believes that determinations of R&R travel eligibility could be made in conjunction
with post (hardship) differential since the factors for R&R eligibility are encompassed in the post
differential factors survey.” However, A/OPR/ALS noted that standards for determining R&R
eligibility would need to be developed along with an analysis of what additional resources would
be needed for that purpose. Further, A/OPR/ALS stated that workload impact and long-term FTE
requirements, if any, would need to be determined following discussion with the regional bureau
Executive Directors currently responsible for determining R&R eligibility.

Recommendation 1: The Under Secretary for Management should transfer the responsibility for
approval and certification of rest and recuperation travel benefits from the regional bureaus to the
Office of Allowances in the Bureau of Administration to facilitate the timely submission of
justifications for continued eligibility of benefits by rest and recuperation posts. (Action: M/PRI)




                                               2
Recommendation 2: The Office of Allowances, in the Bureau of Administration, should obtain
updated biennial documentation from all overseas posts currently receiving rest and recuperation
benefits and reassess justifications for continued eligibility. (Action: A/OPR/ALS)

You should advise us on actions taken or planned on these recommendations within 30 days of
the date of this memorandum. Actions taken or planned are subject to OIG compliance follow-
up and reporting procedures.

I would be happy to meet with you to discuss this matter further, or your staff may contact
Robert Peterson, Assistant Inspector General for Inspections, by email at petersonr@state.gov or
by telephone on 202-663-0373.


Enclosures:
       Compliance Information and Instruction Sheet




                                            3
